Report on Audit of the African Development Foundation’s
Consolidated Financial Statements, Internal Control and
Compliance for Fiscal Year 2003 and 2002.

Audit Report No. 0-ADF-04-002-C

November 14, 2003




                 Washington, D.C.
This page intentionally left blank.
November 14, 2003


MEMORANDUM

FOR:           African Development Foundation President,
               Nathaniel Fields

FROM:          AIG/A, Bruce N. Crandlemire /s/

SUBJECT: Audit of the African Development Foundation’s Financial
Statements, Internal Control, and Compliance for the Fiscal Years Ended
September 30, 2003 and 2002 (Report No. 0-ADF-04-002-C).

Enclosed is the draft report on the subject audit. The Office of Inspector General
(OIG) contracted with the independent certified public accounting firm of Leonard
G. Birnbaum and Company, LLP (LGB) to audit the financial statements of the
African Development Foundation as of September 30, 2003 and 2002 and for the
years then ended. The contract required that the audit be performed in accordance
with generally accepted auditing standards; generally accepted government auditing
standards; and Office of Management and Budget (OMB) Bulletin 01-02, Audit
Requirements for Federal Financial Statements.

In its audit of the African Development Foundation’s (ADF) Fiscal Year 2003
Financial Statements, the LGB auditors found;

           •   that the financial statements were fairly presented in conformity with
               U.S. generally accepted accounting principles
           •   a material weakness in ADF’s internal controls, and
           •   three instances of noncompliance related to the inadequacy of its
               financial and accounting system.

The material weakness in internal controls relates to an inadequacy in the system
used by the General Services Administration to process ADF’s transactions.
Because of this weakness, significant financial statement elements were developed
from sources other than the general ledger.

The auditors also noted instances of noncompliance with the Budget and Accounting
Procedures Act of 1950; OMB Circular A-127 and; Federal Financial Management


                                         1
System Requirements issued by the Joint Financial Management Improvement
Program.

In carrying out its oversight responsibilities, the OIG reviewed LGB’s report and
related audit documentation. This review, as differentiated from an audit in
accordance with U.S. generally accepted government auditing standards, was not
intended to enable the OIG to express, and we do not express, opinions on ADF’s
financial statements or internal control; on whether ADF’s financial management
systems substantially complied with FFMIA; or on ADF’s compliance with laws
and regulations. LGB is responsible for the attached auditor's report, dated
October 30, 2003, and the conclusions expressed in the report. However, our
review disclosed no instances where LGB did not comply, in all material respects,
with applicable standards.

Because of the reported material weakness and compliance findings, we are making
the following recommendations to ADF management:

       Recommendation No. 1: We recommend that the African Development
       Foundation implement the U.S. Standard General Ledger at the
       transaction level.

       Recommendation No. 2: We recommend that the African Development
       Foundation implement an accounting system capable of providing full
       disclosure of its results of financial operations and adequate financial
       information needed in the management of its budget and operations,
       and of providing effective control over its revenues, expenditures, funds,
       property, and other assets in accordance with the Budget and
       Accounting Procedures Act of 1950, OMB Circular A-127, and the Joint
       Financial Improvement Program’s Federal Financial Management
       System Requirements.

The report also contains a management letter comment that does not require a
formal response. We have incorporated your comments on our draft report in
Appendix I of this report.

The OIG appreciates the cooperation and courtesies extended to our staff and to
the staff of LGB during the audit. If you have questions concerning this report,
please contact Andrew Katsaros at (202) 712-4902.




                                        2
Table of   Management’s Discussion and Analysis     5
Contents
           Independent Auditor’s Report
           13

           Balance Sheet                            18

           Statement of Net Cost                    19

           Statement of Changes in Net Position     20

           Statement of Budgetary Resources         21

           Statement of Financing                   22

           Notes to the Financial Statements        23

           Report to ADF Management                 29

           Management Comments and Our Evaluation   32

           Appendix I - Management Comments         33




                                    3
This page intentionally left blank.




                    4
                                           Unaudited

                     MANAGEMENT'S DISCUSSION AND ANALYSIS

The African Development Foundation’s (ADF) mission is to make significant, innovative contributions
to the development and support of solutions to poverty and community-based development in Africa.
ADF accomplishes this by providing funding to empower grassroots groups to become self-reliant and to
resolve problems themselves.

ADF is a unique organization that promotes broad-based, sustainable development in sub-Saharan Africa
and the expansion of local capacity to promote and support grassroots development. ADF was
established as a federal agency and a public corporation by the African Development Foundation Act in
1980 and began operations in 1984. Since that time ADF has awarded more than 1700 grants to promote
grassroots development. The Foundation currently provides grants to support:

•   Development of micro and small businesses that generate increased incomes and employment;
•   Trade and investment linkages for small enterprises and agricultural producer groups;
•   Building of self-supporting, sustainable, local community development agencies;
•   Promoting community based interventions directed toward AIDS prevention and mitigation; and
•   Strengthening democratic values and institutions at the local level.

ADF has a thorough, three-stage grant review process that includes intense scrutiny of: (1) initial
applications and applicant project sites, (2) project concept papers, and (3) final project papers
containing detailed implementation plans, and full budgetary and financial analyses.

Most of ADF’s grants are greater than $50,000 and the maximum grant size is $250,000. To
complement this funding, ADF often helps its beneficiaries leverage grants, loans, and loan guarantees
from other sources. This is accomplished through strategic partnerships with national and regional
governments in Africa, national and regional development banks, other international development
assistance agencies, and the private sector.

Unlike most other official development agencies, ADF works directly with African producer groups and
non- governmental organizations. The Foundation does not channel any resources through governments.
All ADF-funded projects are initiated by the enterprise or community group and, rather than designing
projects itself, ADF works with the local partner non-government organizations (NGOs) to define and
deliver the assistance needed by applicants and grantees. The Foundation's participatory approach
assures local ownership and strong participation, and it has been shown to enhance the impact and
sustainability of the investments.

The African Development Foundation is currently administering over 240 projects in fifteen countries:

Benin                            Namibia
Botswana                         Niger                            Uganda
Cape Verde                       Nigeria                          Zambia
Ghana                            Senegal                          Zimbabwe
Guinea                           Swaziland
Mali                             Tanzania




                                                     5
                                              Unaudited

                        ADF’s Strategic Goals and Objectives for FY 2003

During FY’s 2002 and 2003, ADF implemented an innovative business model that decentralizes its
headquarters and field operations to improve project screening, selection and monitoring, and provides in-
country technical resources to support grantees. African professionals now serve as ADF Country
Representatives and staff of the local “Partner Organizations.” During FY 2003, ADF also established six
new strategic program alliances with African Governments, and recognized $1.3 million in leveraged
contributions from existing strategic alliances. The new strategic alliances formed in FY 2003 will result in
the Foundation tripling its non-appropriated revenues in FY 2004. In addition, during the last quarter of FY
2003, ADF negotiated an interagency agreement that will provide the Foundation with a federalized
Financial Management System to assist the Foundation in making timely financial decisions. Taking into
consideration all these challenges, the Foundation has made remarkable accomplishments in achieving its
Management Goals and Objectives for FY 2003 (Table 1).

Establishing Alliances with African Governments, Donors, and the Private Sector to Develop
Leveraged Contributions for Grassroots Development.

    During FY 2003, ADF established six new strategic alliances in Cape Verde, Ghana, Mali, Senegal,
    Zambia and Swaziland. In FY 2003, combined with its existing alliances with the Government of
    Botswana, Government of Namibia, Government of Jigawa State in Nigeria, and the World Bank in
    Guinea, the Foundation recognized $1.3 million in leveraged contributions for grassroots development.
    In FY 2004, ADF will triple its contributed revenues equaling $4.2 million. In FY 2005, the Foundation
    expects to add an additional funding partner with a total of 10 countries receiving leveraged
    contributions projected at $5.5 million. The partnerships formed through ADF’s strategic alliances not
    only result in additional non-appropriated revenues for grassroots development but also visibly
    demonstrate that ADF’s approach is highly valued and effective.

Management Reforms - Decentralization of ADF Headquarters and Realignment of its Field
Structure.

    During FY 2003, ADF finalized new partnership agreements with independent, legally registered, non-
    government organizations through an open, competitive selection process in all countries except Zambia,
    Cape Verde, and Swaziland. In FY 2003, ADF implemented a new strategic objective of helping
    develop the capacity of its partner organizations to achieve long-term financial sustainability. Within
    each country, the new partner organizations will assist applicants in developing, implementing, and
    monitoring their projects. During the first two years of their cooperative agreement (FY 2002 and 2003),
    the Foundation asked its new partner organizations to concentrate on ADF work. However, in FY 2004,
    ADF will encourage the new partner organizations to take on additional work from other funding
    agencies and clients, thereby reducing their dependency on ADF support.

    The next phase of ADF’s management restructuring is the decentralization of its field representation to
    improve compliance with U.S. government regulations, ADF’s policies, and project screening and
    monitoring procedures. In FY 2003, ADF hired resident in-country contractors who serve as ADF’s
    resident representatives. The principal duties of resident representatives include ensuring compliance
    with U.S. Government regulations and ADF polices, screening of proposals, assessing the financial
    management capacity of new grantees, reviewing their use of funds throughout the life of the grant,
    monitoring project implementation and remediation, and assessing project and program impact. ADF’s
    resident representatives are in place in each of its operational countries except Swaziland, Zambia and
    Zimbabwe. During FY 2003, ADF contracted administrative assistants and drivers to support the
    resident representatives. Each field representative’s office is staffed with African professionals who


                                                     6
                                                Unaudited

   know the country, speak the local language, and understand enterprise development. Each office is also
   being equipped to support all of ADF’s field operations. The selection of all country resident
   representatives will be completed by December 31, 2003.

   At this time ADF is examining options for realigning its headquarters staff to fit the new decentralized
   field structure. In order to ensure a smooth transition with the field operations and continued screening
   and monitoring projects, ADF/Washington staff continues to serve as interim country representatives in
   Swaziland, Zambia and Zimbabwe until all field representatives are in place and trained. The additional
   costs incurred during the transitional start up phase contributed to the significant increase in ADF non-
   program costs during FY 2003 and will continue to affect non-program costs in FY 2004. Options for
   the realignment of headquarters staff will be presented in February 2004, therefore ADF will experience
   a continuation of higher than normal non-program costs. By the fourth quarter of FY 2004, ADF expects
   its non-program costs to be 25% or less of total funding.

Improved Accounting and Financial Management Systems

   On October 1, 2002, the US General Services Administration (GSA) converted their Financial
   Management System (FMS). However, significant problems related to GSA’s conversion resulted in
   ADF’s continued reliance on its internal accounting records to report on the Foundation’s financial
   activities and perform offline adjusting journal entries to GSA’s FMS. In order to correct the resulting
   FY 2003 audit findings, in the last quarter of this fiscal year, ADF negotiated a new interagency
   agreement with US Department of Interior’s National Business Center (NBC) to supplement ADF’s
   accounting operations and provide full systems support utilizing NBC’s federalized Financial
   Management system. The conversion is scheduled to begin the first quarter of FY 2004 and will be
   completed by March 31, 2004. The implementation of NBC’s Financial Management System will
   ensure the integrity of ADF’s financial data while providing timely reports to assist management in
   assessing and making key decisions regarding the Foundations’ financial operations.

   ADF implemented a comprehensive grants database to improve management oversight and internal
   controls for financial and progress reporting of grantees and partner organizations. During FY 2002, the
   grants database became fully operational as a tool for financial and administrative management. The
   advantages of the database are significant given its ability to simultaneously track and report in both
   local currency and equivalent US dollar values. Currently, ADF’s grant and cooperative agreements are
   tracking thirteen different currencies specific to the countries serviced. Therefore, the timeliness and
   accuracy of tracking multiple currencies is an essential component in ADF’s management of its grant
   funds. Following the conversion to NBC’s Financial Management System (FMS), the financial data
   from the grant database will be converted to FMS at the transactional level in compliance with the U.S.
   Standard General Ledger.

Increased Program Funding

   In FY 2003 over 96 new or amended grants and cooperative agreements were funded in ADF’s fifteen
   countries. The actual amount of program funding was $10.1 million, with another $3.4 million
   committed to grants that will be finalized the beginning of FY 2004. In addition to ADF appropriations
   in FY 2003, ADF increased its funding revenue through leveraged contributions of $1.3 million, with an
   additional $9.7 million projected over the next two fiscal years. In FY 2003, ADF also decreased its
   carryover of available un-obligated funds by $0.5 million into FY 2004.




                                                    7
                                         Unaudited

Financial Accountability

   ADF undergoes annual, independent audits that address the adequacy of our financial statements,
   internal controls, and compliance with laws and regulations. In FY 2001, the Foundation received an
   unqualified option on all five financial statements from its independent auditor and the USAID Office of
   Inspector General. In FY 2002, ADF again received an unqualified opinion on all five 2001 and 2002
   comparative statements. In FY 2003, ADF continued to receive an unqualified opinion on all of its five
   comparative financial statements for FY 2002 and FY 2003.

               ADF’S STRATEGIC GOALS AND OBJECTIVES for FY 2002
                                    Table 1


Goal I:   Advance broad-based, sustainable development and empowerment of the poor in
          Africa

Objective 1:   Promote micro- and small-enterprise development that will generate income and
               employment

Objective 2:   Increase participation of African grassroots enterprises and producer groups in
               trade and investment relationships with the U.S. and within Africa

Objective 3:   Promote innovative community-based interventions to remediate the economic
               and social impact of HIV/AIDS and reduce its spread

Goal II: Expand local capacity to promote and support grassroots, participatory development

Objective 1:   Build self-supporting, sustainable, local community development agencies that
               provide technical assistance and support to grassroots groups

Objective 2:   Promote community resource mobilization and reinvestment

Objective 3:   Establish strategic partnerships with national and local governments, other
               donor agencies, and the local private sector, to support sustainable, grassroots
               development

Objective 4:   Encourage African governments and other donors to increase utilization of
               participatory development “best practices”




                                                    8
                                                     Unaudited

Selected Performance Indicators

In accordance with the Government Performance and Results Act, ADF prepares an Annual Performance
Report. ADF’s performance results for FY’s 1999, 2000, 2001, and 2002 are presented for comparison
purposes and to demonstrate ADF’s significant growth prior to FY 2003 activities, Table 2.

       ADF’s Comparative Performance Results for FY’s 1999, 2000, 2001, and 2002
                                      Table 2
Performance Indicator                   FY 1999             FY 2000           FY 2001            FY 2002
Micro- and Small Enterprise
Development
Enterprises assisted                     5,863               19,635             47,049            86,180
Owners and employees in                  15,655              47,168             36,457            96,854
assisted enterprises
Women as a percent of                   Indicator            77.0%              56.8%              58.1%
employees in assisted                   not in use
enterprises
Enterprises receiving loans              18,910              42,518             54,099           65,319
Values of loans disbursed               Indicator           Indicator         Indicator        $11,243,310
                                        not in use          Not in use        not in use
Percent of total value of loans         Indicator             81.7%             50.8%              60.6%
for women*                              not in use
People receiving business                23,636              39,354             66,126           Indicator
management or technical                                                                        discontinued
training
Total gross revenues of                 Indicator           Indicator        $17,456,526       $53,440,000
assisted enterprises and                not in use          Not in use
organizations
Total net income of assisted            Indicator           Indicator        $10,528,248       $14,611,000
enterprises and organizations           not in use          Not in use
Trade and Investment
Number of export products                   2                   2                  4                 19
promoted
Total gross revenues of                  Indicator          Indicator         Indicator         $7,594,000
assisted enterprises and                not in use          Not in use        not in use
organizations from export sales
AIDS Prevention & Mitigation
People receiving training in             Indicator             962              35,483            274,041
AIDS prevention                         not in use
Women as a percent of people             Indicator          Indicator           57.0%              66.8%
receiving AIDS prevention               not in use          Not in use
training11
Participatory Development
Methods
Partner Organizations assisted           Indicator             13                 14                 13
                                        not in use
Host governments encouraging             Indicator              2                  2                 4
donors to adopt PDM or                  not in use
allocating more funding to PDM



1 The actual percentages for women are higher than reported since all beneficiaries were assumed to be men if
gender-disaggregated data were not available. Thus, the percentage of women beneficiaries is a conservative,
lower-bound estimate.


                                                        9
                                                  Unaudited

Future Activities

The U.S. Government appropriations for ADF in FY 2003 were $18.568 million. Although as of this report
the appropriations for FY 2004 have not been set, it is expected to remain at a similar funding level of
$18.689 million. Combined with the ADF’s leveraged contributions, receiving the full appropriated funding
expected in FY 2004 will enable the Foundation to continue its support for micro and small enterprise (MSE)
development, help African producers respond to new trade and investment opportunities, and further assist in
the development of 14 Partner Organizations. In addition, ADF will be able to expand in the following
areas:


    •   The Foundation will be able to launch major programs in Zambia and Swaziland. ADF’s unique
        approach would make an important contribution to the countries’ national rural development
        programs and complement other U.S. Government (USG) support in these important countries.

    •   It will also enable the Foundation to continue incorporating HIV/AIDS prevention strategies in all
        ADF projects and support other additional community based AIDS programs, which will be a
        significant grassroots component of the USG efforts to halt the spread of this deadly virus.

    •   From the Foundation’s project management perspective, ADF will expand its grants database to
        include detail information to analyze project performance and results.

    •   From the Foundation’s financial management perspective, ADF will convert its existing financial
        management system to a federalized financial management system that will address all the FY 2003
        independent audit findings.

    •   Beyond ADF's own project portfolio, this funding will also enable the Foundation to develop an
        estimated twelve high-impact, participatory development program models that can be replicated by
        others. In so doing, ADF will multiply the return on its investments and efforts.

ADF Quality Assurance, Internal Controls and Legal Compliance

In 1994, ADF established an Internal Audit Department (IAD) with a full-time Financial and Field Auditor
who reported directly to the President. The Foundation’s Board of Directors has a designated audit
committee who are responsible for all audit and review functions of the Foundation. ADF’s Internal
Financial and Field Auditor is primarily responsible for the financial oversight of all partner organizations.
The IAD conducts an on site internal audit of each partner organization at least once every two years and
reviews the results of the partner’s yearly independent audit.

In addition to the Financial and Field Auditor, IAD also has a full-time Financial Control Officer whose
primary responsibility is oversight of the Foundation's grantees. The Financial Control Officer also
supervises the independent external audit of ADF’s grant program.

During FY 2003, ADF Partner Organizations helped grassroots groups develop their project ideas into viable
business plans, and provided rigorous financial analysis and support to assure projects were progressing
toward established performance goals. Each of ADF’s partner NGOs has a Financial Officer who assists the
grantees in their compliance with the Foundation’s legal and financial reporting requirements.

ADF’s Resident Country Representatives assess each grantee’s capacity to manage and account for funds



                                                     10
                                          Unaudited


and certifies its financial management capacity prior to ADF awarding a grant. After project approval, the
Partner Organization provides intensive financial management training to the grantee.

All grantees are required to submit quarterly financial reports and activity and performance reports. Business
enterprises are also required to submit quarterly financial statements. During the life of the grant, ADF’s
Country Representatives monitor the financial reporting by grantees and partner organizations, address any
discrepancies or other issues, make regular site visits to verify project performance, and report to ADF
headquarters’ management on compliance and performance issues. The resident Country Representatives
carry out administrative functions that support ADF and are thereby classified under the administrative costs
category.

In FY 2002 the Foundation initiated its realignment of its Washington headquarters staffing to improve pre-
project analysis and financial management. The headquarters’ realignment will be completed during FY
2004. While ADF is optimistic that this new structure will improve efficiency and effectiveness over time,
ADF incurred significant costs in transitioning to this new structure during FY 2002 and FY 2003.

The grants database has a full time Grants Database and Operations Manager, who is the primary person
responsible for the continued integrity and security of all grantee administrative and financial data reported.
Following the conversion of the Financial Management System (FMS) in FY 2004, ADF will interface its
grant database with its FMS to facilitate timely management analysis of financial data and ensure regulatory
compliance.

Comments on Financial Statements

ADF is pleased to report that in FY 2003 the Foundation continues to receive an unqualified opinion on all
five financial comparative statements from its independent auditors Leonard G. Birnbaum and Company, and
the USAID Office of Inspector General. Since FY 2001, ADF has received an unqualified opinion on the
Balance Sheet, the Statement of Net Costs, the Statement of Net Position, the Statement of Budgetary
Resources, and the Statement of Finance.

Limitations of the Financial Statements

ADF’s principal financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b).

While the statements have been prepared from books and records in accordance with generally accepted
accounting principles (GAAP) for Federal entities and the formats prescribed by OMB, the statements are in
addition to the financial reports used to monitor and control budgetary resources which are prepared from the
same books and records.

The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.




                                                     11
AFRICAN DEVELOPMENT FOUNDATION

 INDEPENDENT AUDITOR'S REPORT

    SEPTEMBER 30, 2003 and 2002




   Leonard G. Birnbaum and Company
      Certified Public Accountants
         6285 Franconia Road
      Alexandria, Virginia 22310
             (703) 922-7622




          12
                            INDEPENDENT AUDITOR’S REPORT

To the Board of Directors and the President,
African Development Foundation:

       We have audited the African Development Foundation’s (ADF) Balance Sheet, Statement of Net
Cost, Statement of Changes in Net Position, Statement of Budgetary Resources and Statement of
Financing (Principal Financial Statements) as of and for the years ended September 30, 2003 and 2002;
we have examined internal control over financial reporting in place as of September 30, 2003; and we
have examined compliance with laws and regulations.

       In our opinion, ADF’s Principal Financial Statements referred to in the first paragraph, are
presented fairly in all material respects as of and for the fiscal years ended September 30, 2003 and
2002.

We found:
               an instance, as noted below, of material weakness in the internal controls over financial
               reporting, and

               Instances, as noted below, of noncompliance with selected provisions of applicable laws
               and regulations.

Each of these conclusions is discussed in more detailed below. This report also discusses the scope of
our work.


                           PRINCIPAL FINANCIAL STATEMENTS

        In our opinion, the accompanying balance sheets of ADF as of September 30, 2003 and 2002 and
the related ADF’s statements of net cost, statements of changes in net position, statement of budgetary
resources and financing for the fiscal years ended September 30, 2003 and 2002 present fairly, in all
material respects, the

       •    financial position of the ADF as of September 30, 2003 and 2002

       •    net cost and changes in net position of the ADF for the fiscal years ended September 30,
            2003 and 2002 and;
                                                  13
       •   budgetary resources and financing of the ADF for the fiscal years ended September 30, 2003
           and 2002

       in conformity with accounting principles generally accepted in the United Sates of America.

                                      INTERNAL CONTROL

        We considered ADF’s internal control in order to determine our auditing procedures for the
purpose of expressing our opinion on the Principal Financial Statements and not to provide assurance on
internal control. Consequently, we do not provide an opinion on internal controls.

       The objectives of internal control are to provide management with reasonable, but not absolute,
assurance that the following objectives are met:

       •   transactions are properly recorded and accounted for to permit the preparation of reliable
           financial reports and to maintain accountability over assets;

       •   funds, property, and other assets are safeguarded against loss from unauthorized acquisition,
           use, or disposition; and

       •   transactions, including those related to obligations and costs, are executed in compliance
           with laws and regulations that could have a direct and material effect on the financial
           statements and other laws and regulations that the Office of Management and Budget
           (OMB), or ADF management have identified as being significant for which compliance can
           be objectively measured and evaluated.

        Our consideration of internal control would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards issued by the
American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of internal control that, in our
judgement, could adversely affect ADF’s ability to record, process, summarize, and report financial data
consistent with the assertions of management in the financial statements. Material weaknesses are
reportable conditions in which the design or operation of one or more of the internal control components
does not reduce to a relatively low level the risk that errors or irregularities in amounts, which would be
material in relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.

       We noted the following matter that we considered to be a material weakness as defined above.
ADF’s financial and accounting system, as of September 30, 2003 was inadequate. The principal areas
of inadequacy were:

          Because of inadequacies in the system used by the General Services Administration to
           process ADF’s transactions, significant elements of the financial statements including, but
                                                   14
           not limited to, grant advances, prepayments franchise fund, accounts payable, undelivered
           orders, unexpended appropriations, and expenses; were developed from sources other than
           the general ledger.

          The United States Standard General Ledger has not been implemented at the transaction
           level.

       We noticed certain other matters involving the internal control structure and its operation that we
have reported to the ADF’s management in a separate letter dated October 30, 2003.


                      COMPLIANCE WITH LAWS AND REGULATIONS

        ADF’s management is responsible for complying with laws and regulations applicable to ADF.
As part of obtaining reasonable assurance about whether the financial statements are free of material
misstatement, we performed tests of ADF’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the determination of financial
statements amounts, and certain other laws and regulations specified in OMB Bulletin 01-02, Audit
Requirements for Federal Financial Statements. However, the objective of our audit of the Principal
Financial Statements, including our tests of compliance with selected provisions of applicable laws and
regulations, was not to provide an opinion on overall compliance with such provisions. Accordingly, we
do not express such an opinion.

        Material instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations, which cause us to conclude that the aggregation of the
misstatements resulting from those failures or violations is material to the financial statements or that
sensitivity warrants disclosure thereof.

       The results of our tests of compliance with the laws and regulations described in the preceding
paragraph disclosed the following instances of noncompliance with laws and regulations that are
required to be reported under Government Auditing Standards and OMB-Bulletin 01-02.

•   The inadequacy of the financial and accounting system articulated above are a failure to comply
    with:

          The Budget and Accounting Procedures Act of 1950 (Sec. 113), which requires an
           accounting system that provides full disclosure of the results of financial operations,
           adequate financial information needed in the management of operations and the formulation
           and execution of the budget, and effective control over income, expenditures, funds,
           property, and other assets.

          OMB Circular A-127, Financial Management Systems, which requires ADF to establish and
           maintain an accounting system that provides for (1) complete disclosure of the financial
           results of the activities of the agency, (2) adequate financial information for agency
                                                   15
           management and for formulation and execution of the budget, and (3) effective control over
           revenue, expenditures, funds, property, and other assets.

          JFMIP’s Federal Financial Management System Requirements state that the core financial
           management systems must support the partnership between program and financial managers,
           and assure the integrity of decision-making information including the ability to collect
           accurate, timely, complete, reliable, and consistent information. JFMIP also requires that the
           core financial system be able to provide financial information to support internal and
           external reporting requirements, including as necessary the requirements for financial
           statements. OMB guidance states that one indicator of compliance with this standard is that
           the ADF’s core financial system, supported by other systems containing the detailed data
           summarized in the core financial system, be the source of information for the preparation of
           the annual financial statements. However, the ADF’s core financial system is not the sole
           source of information used in the preparation of the annual financial statements.

    We noted certain other instances of noncompliance that we have reported to the ADF’s management
in a separate letter dated October 30, 2003.

                        REQUIRED SUPPLEMENTARY INFORMATION

The Management’s Discussion and Analysis is not required part of the financial statements but is
supplementary information required by the Federal Accounting Standards Advisory Board and OMB
Bulletin No. 01-09, Form and Content of Agency Financial Statements, as amended. We have applied
certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of the supplementary information. However, we did not audit
the information and express on opinion on it.

                         RESPONSIBILITIES AND METHODOLOGY

ADF management is responsible for:

       •   preparing the Principal Financial Statements in conformity with generally accepted
           accounting principles;

       •   establishing and maintaining effective internal control; and

       •   complying with applicable laws and regulations.

       Our responsibility is to express an opinion on these Principal Financial Statements based on our
audit. Generally accepted auditing standards require that we plan and perform the audit to obtain
reasonable assurance about whether the Principal Financial Statements are free of material
misrepresentation and presented fairly in accordance with generally accepted accounting principles. We
considered ADF’s internal control for the purpose of expressing our opinion on the Principal Financial
Statements and not to provide an opinion on internal control. We are also responsible for testing
                                                  16
compliance with selected provisions of applicable laws and regulations that may materially affect the
financial statements.

       In order to fulfill these responsibilities, we

          examined, on a test basis, evidence supporting the amounts and disclosures in the Principal
           Financial Statements;

          assessed the accounting principles used and significant estimates made by management;

          evaluated the overall presentation of the Principal Financial Statements;

          obtained an understanding of the internal controls over financial reporting;

          obtained an understanding of the design and operation of internal controls over the reliability
           of data supporting the performance measures reported in the Management Discussion and
           Analysis section of ADF’s fiscal year 2003 Annual Report.;

          tested compliance with selected provisions of laws and regulations that may materially affect
           the financial statements; and

          performed other procedures, as we considered necessary in the circumstances.

        Our audit was conducted in accordance with generally accepted auditing standards, the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States, and OMB Bulletin 01-02. We believe that our audit provides a reasonable
basis for our opinion.

        This report is intended for the information of the Inspector General of ADF and management of
the African Development Foundation. This restriction is not intended to limit the distribution of this
report, which is a matter of public record.

       Comments by ADF’s management on this report are presented in management’s discussion and
analysis.
                                                        /s/
                                      Leonard G. Birnbaum and Company

Alexandria, Virginia
October 30, 2003




                                                   17
                                       African Development Foundation
                                             BALANCE SHEET
                                      As of September 30, 2003 and 2002

                                                                  Notes                 FY 2003       FY2002
ASSETS

    Intergovernmental:
         Fund Balance with Treasury                                 2               $22,627,277     $17,658,948
         Fund Balance held outside Treasury                         2                   724,296         341,516
    Total Intergovernmental                                                          23,351,573      18,000,464

    Cash and other monetary assets                                  3                    924,837      1,165,927
    Accounts receivable – Net                                       5                          -         17,092
    Accounts receivable – Other Revenue                             5                          -        704,223
    General property, plant and equipment – Net                     6                    370,838        218,434
    Other:
        Advances:      Travel                                       4                      59,400        57,150
                       Grants                                       4                   1,755,283     1,968,857
        Prepayment – Franchise Fund                                 4                     274,120       660,687

TOTAL ASSETS                                                                        $26,736,051     $22,792,834


LIABILITIES

    Intergovernmental:
         Collections from Other Revenues                            9               $    118,296    $ 1,103,688
    Total Intergovernmental                                                              118,296      1,103,688

    Accounts Payable                                                9                    107,147        90,114
    Accrued Payroll                                                 9                     84,454       181,737
    Accrued Leave                                                   9                    183,402       189,833

TOTAL LIABILITIES                                                                   $    493,299    $ 1,565,372

NET POSITION
   Unexpended Appropriations                                        7                23,805,948      18,963,953
   Cumulative Results of Operations                                                   2,436,804       2,263,509

TOTAL NET POSITION                                                                  $26,242,752     $21,227,462

TOTAL LIABILITIES AND NET POSITION                                                  $26,736,051     $22,792,834




                              The accompanying notes are an integral part of these statements.

                                                         18
                                   African Development Foundation
                                    STATEMENT OF NET COST
                          For the Years Ended September 30, 2003 and 2002

                                                                                   FY 2003       FY2002
                                                                                    Grant         Grant
                                                                Notes               Program       Program

PROGRAM COSTS

   Program Funding                                                                $ 8,450,837   $ 7,413,376

   Operating Expenses – Public                                                      6,371,889     5,190,312

   Operating Expenses – Intergovernmental                                             125,000      127,689

TOTAL PROGRAM COSTS                                                                14,947,726    12,731,377

NET PROGRAM COSTS                                                                  14,947,726    12,731,377

NET COST OF OPERATIONS                                                            $14,947,726   $12,731,377




                            The accompanying notes are an integral part of these statements.

                                                       19
                                    African Development Foundation
                           STATEMENT OF CHANGES IN NET POSITION
                           For the Years Ended September 30, 2003 and 2002



                                                        FY 2003                                     FY 2002
                                        Cumulative Results    Unexpended            Cumulative Results    Unexpended
                              Notes       of Operations      Appropriations           of Operations     Appropriations

Beginning Balances                              $ 2,263,509         $18,963,953             $ 1,763,420        $15,822,252

Budgetary Financing Sources
  Appropriations Received                                            18,689,000                                 16,542,000
  Recission & Cancelled Resources                                      (121,479)                                  (310,529)
  Appropriations Used                            13,725,526         (13,725,526)                13,089,770     (13,089,770)

Non-Exchange Revenue

   Other Revenues
        (Non Expendable)         8                                                                1,103,688
   Collections – Transferred     8                                                               (1,103,688)
   Donations – Expendable        8                 1,276,584                                             50
   Transfer in w/o Reimbursement                                                                     13,957
   Imputed Financing                                 125,000                                        127,689
   Other – Net Losses Equipment                       (6,089)

Net Cost of Operations                           (14,947,726)                                   (12,731,377)

Ending Balances                                 $ 2,436,804         $23,805,948             $ 2,263,509        $18,963,953




                             The accompanying notes are an integral part of these statements.

                                                        20
                                  African Development Foundation
                      COMBINED STATEMENT OF BUDGETARY RESOURCES
                         For the Years Ended September 30, 2003 and 2002
                                                                  Notes               FY 2003        FY2002

BUDGETARY RESOURCES

    Budget Authority – Appropriation                                                $18,689,000    $16,542,000

    Unobligated Balance Brought Forward, October 1                                    2,336,486      4,715,476
    Spending Authority from Offsetting Collections                                    1,276,584         82,467

    Adjustments:
      Net Results of Foreign Currency Adjustment PY Obligations                      (2,592,891)     2,869,857
      Recission Current Year                                                           (121,479)        (2,000)
      Permanently not available                                                        (189,775)      (308,529)

TOTAL BUDGETARY RESOURCES                                                           $19,397,925    $23,899,271

Obligations Incurred – Current Period                                                16,232,064     20,286,201

Unobligated balances – available                                    7                 2,652,031      2,806,885

Unobligated balances – unavailable                                  7                   513,830       806,185

TOTAL STATUS OF BUDGETARY RESOURCES                                                 $19,397,925    $23,899,271

RELATIONSHIP OF OBLIGATIONS TO OUTLAYS:

Obligated balance, Net – Beginning of Period                                         15,350,883     11,024,308
    Reimbursement & Other Income Earned – Receivable                                          -         82,467
                                                                                     15,350,883     11,106,775

Obligated balance – Net End of Period

    Advances                                                                          2,088,803      2,686,694
    Undelivered Orders                                                               18,551,284     12,664,189
                                                                                     20,640,087     15,350,883

Outlays:
    Disbursements                                                                    12,702,987     13,089,770
    Collections                                                                               -        (82,467)
       Subtotal                                                                      12,702,987     13,007,303

Less: Offsetting receipts                                                            (1,276,584)              -

Net Outlays                                                                         $11,426,403    $13,007,303



                              The accompanying notes are an integral part of these statements.

                                                         21
                                       African Development Foundation
                             CONSOLIDATED STATEMENT OF FINANCING
                              For the Years Ended September 30, 2003 and 2002
                                                                                        FY 2003        FY2002

RESOURCES USED TO FINANCE ACTIVITIES

Obligations Incurred                                                                  $16,232,064    $20,286,201

   Less: Spending Authority from Offsetting Collections & Adjustments                   1,316,307     (2,952,325)
   Net Obligations                                                                     17,548,371     17,333,876

   Donated Revenue                                                                              -        14,007
   Financing Imputed for Cost Subsidies                                                   125,000       127,689

Net Other Resources Used to Finance Activities                                            125,000       141,696

Total Resources Used to Finance Activities                                             17,673,371     17,475,572


RESOURCES USED TO FINANCE ITEMS NOT PART
  OF THE NET COST OF OPERATIONS

   Change in budgetary resources not yet provided (Increase)                           (2,011,670)    (4,392,589)

   Resources that finance the acquisition of assets                                    (1,588,524)       (55,456)
   Total resources that do not fund net costs                                          (3,600,194)    (4,448,045)

Total Resources Used to Finance Net Cost of Operations                                 14,073,177     13,027,527

Costs that will not Require Resources in this Period:
  Increase in Accrued Annual Leave Liability                                                              38,165
  Exchange Revenue from the Public (Increase)                                             721,315        133,613
  Resources used to fund Prior Year Expenses (Inc)                                              -       (714,078)
  Total Costs that will Not Require Resources in this Period                              721,315       (542,300)

Components not Requiring Resources

   Bad Debt Related to Uncollectible Receivables                                           17,092       133,613
   Loss/Gains on the Disposal of Assets                                                     6,089             -
   Depreciation                                                                           130,052       112,537

Total costs that do not require resources                                                 153,233       246,150

NET COST OF OPERATIONS                                                                $14,947,725    $12,731,377




                                The accompanying notes are an integral part of these statements.

                                                           22
                                     African Development Foundation
                                        Notes to the Financial Statements
                                         As of September 30, 2003



NOTE 1. SIGNIFICANT ACCOUNTING POLICIES

A.       Organization

    The African Development Foundation (ADF) is a government-owned corporation established by Congress
under the African Development Foundation Act in 1980 and began operations in 1984. The Foundation is the
principal agency of the U.S. Government that supports community-based, self-help initiatives that alleviate poverty
and promote sustainable economic and social development in Africa at the grassroots level. The Foundation’s
headquarters are in Washington, D.C. ADF maintains partnerships with local organizations, staffed with African
professionals, in each of the countries in which it operates. Over the last seventeen years, the Foundation has funded
over 1700 activities in 34 African countries.

B.       Basis of Presentation

The accompanying financial statements have been prepared on the accrual basis to report the financial position and
results of operation in accordance with the concepts and standards contained in the Statements of Federal Financial
Accounting Standards, as required by the Chief Financial Officers Act of 1990. These statements have been
prepared from the books and records of the Foundation in accordance with the form and content for federal financial
statements specified in the Office of Management and Budget (OMB) in OMB Bulletin No. 01-09 as amended and
the Foundation’s accounting policies which are summarized in this note.

C.       Basis of Accounting

Transactions are recorded on an accrual basis. Grants are recorded when obligated and expenses are recognized
when the funds are expended, without regard to receipt or payment of cash. The preparation of the financial
statements in conformity with generally accepted accounting principles requires management to make estimates and
assumptions that affect the reported amounts of assets and liabilities, and disclosure of contingent assets and
liabilities at the date of the financial statements, and the reported amounts of grants and expenses during the
reporting period. Actual results will invariably differ from those estimates.


D. Fund Balances with Treasury and Cash

The Foundation maintains the majority of its funds in the U.S. Treasury. These are amounts for which the
Foundation is authorized to make expenditures and pay liabilities. The Foundation does maintain cash in a
commercial account at Deutsche Bank Trust Company to process the award of grant funds to recipients in U.S.
currency. In addition, a commercial account is maintained with Barclays Bank of Botswana, Citibank Nigeria, and
Ecobank of Guinea to process grant funds for that country. The government of Botswana and Nigeria co-funds
grants with matching grant funds deposited to the Ecobank, Citibank, and the Barclays’ account, however, the
Foundation controls all grant disbursement activities.



E.       Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are denominated in local
currencies to facilitate accounting by the recipient organizations. Depending on the nature of the transaction, foreign



                                                         23
currencies are translated into dollars at the actual exchange rate received by the Foundation when the transaction is
made or at the prevailing exchange rate at the beginning of the month in which the transaction occurred. The value
of obligations incurred by the Foundation in foreign currencies varies from time to time depending on the current
exchange rate .The Foundation adjusts the value of its obligations at the end of each quarter during the year to reflect
the prevailing exchange rates. Downward adjustments to prior year obligations based on favorable foreign currency
exchange rates will be made available for obligation if the adjustment occurs within the Foundation’s authorized two
year funding period. Upward adjustment to prior year obligations based on unfavorable foreign currency exchange
rate with the U.S. dollar will be made from the current year available funds.

F.       Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over a three-month period.
Grantees report to the Foundation periodically on the actual utilization of these funds. For purposes of these
financial statements, the Foundation treats disbursements to grantees as advances. The advance is reduced when the
grantee reports expenditures. The total grant advance is the total amount disbursed to the grantee less the total
expended for open (non-expired) grants as of the reporting date. In order to ensure timeliness in reporting grantee
expenditures, the Foundation will use estimates to complete to calculate the last quarter’s grantee expenditures based
on historical expenditure trends since 1996. The actual expenditures adjustments will be reported in the following
quarter’s financial statements. Once a grant has closed (expired or cancelled) any excess disbursement is reclassified
as an Accounts Receivable.

G.       Travel Advances

Advances are given to ADF employees for official travel. Travel advances are recorded as expenses upon receipt of
employee travel vouchers.

H.     Property, Plant and Equipment, Net

The space in which the Foundation operates is leased by the Foundation through a multi–year lease. Equipment is
depreciated using the straight–line method over useful lives which is estimated at five years.

I.     Accounts Payable

Accounts payable represent amounts owed to non-federal entities, primarily commercial vendors, for goods and
services received by ADF and grantees whose allowable expenditures exceed the amount disbursed.

J.       Contingencies

The Foundation is a party in various administrative, legal actions and claims brought by or against it. In the opinion
of the Foundation’s management and legal counsel, the ultimate resolution of these proceedings, actions and claims
will not materially affect the financial position or results of operations of the Foundation.




                                                          24
K.    Annual, Sick, and Other Leave

Annual, sick and other leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year, the
Foundation calculates the value of the accrued annual leave at the end of the year based on current pay rates.
Funding for payment of accrued annual leave at the end of the year will be taken from future financing sources. Sick
leave and other types of non-vested leave are expensed as taken.

L.     Retirement Plan

The majority of the Foundation’s employees participate in the Civil Service Retirement System (CSRS) or the
Federal Employees Retirement System (FERS). The Foundation makes statutory contributions to the Office of
Personnel Management for employees enrolled in each plan. The Foundation does not report accumulated assets,
plan benefits or unfunded liabilities, if any, attributable to its employees. The Office of Personnel Management
reports such amounts.

M. Reclassifications

Certain accounts in fiscal year 2002 were reclassified to confirm with the fiscal year 2003 presentation.

Note 2.   Fund Balance with Treasury

                  ADF’s Fund Balance with Treasury as of September 30, 2003 and 2002 are summarized below:

                                                                                 FY 2003                FY 2002

                           Appropriated Funds                                $    22,611,487        $       17,641,798
                           Trust Fund                                                 15,790                    15,790
                           Gift Fund                                                       -                     1,360

                           Total Fund Balance with Treasury                  $    22,627,277        $       17,658,948

                           Deutsche Bank Trust Company                                39,232                   44,444
                           Ecobank of Guinea                                         118,296                        -
                           Barclays Bank of Botswana                                 515,471                  243,521
                           Citibank Nigeria                                           51,297                   53,551

                           Total Fund Balance Held Outside Treasury          $       724,296        $         341,516

Note 3.     Cash, Foreign Currency and Other Monetary Assets

                  ADF’s other monetary assets are summarized below:

                                                                                 FY 2003                FY 2002

                           Franchise Fund - Contracting                              924,837                 1,165,927

                           Total                                             $       924,837        $        1,165,927




                                                          25
Note 4.   Advances

               ADF’s advances as of September 30, 2003 and 2002 are summarized below:

                                                                                FY 2003                 FY 2002

                        Grants                                              $     1,755,283         $     1,968,857
                        Travel                                                       59,400                  57,150
                        Prepayment – Franchise Fund                                 274,120                 660,687

                      Total                                                 $     2,088,803         $     2,686,694
Note 5.   Accounts Receivable

               The Accounts Receivable represents the excess of receipts over expenditures by In-Country
               Partnerships and Development and Technical Assistance Grantees for FY 2003 and 2002.

                                                                                FY 2003                 FY 2002

                        Accounts Receivable                                 $               -       $       123,016
                        Less Allowance for Uncollectable                                    -               105,924

                         Net Accounts Receivable                            $               -       $        17,092

               The Accounts Receivable – Other Revenues from FY 2002 represents the due from ADF’s
               strategic partnerships with African Governments and other donor agencies.

                                                                                FY 2002

                        Government of the Republic of Guinea                $       270,247
                        Government of Jagawa State, Nigeria                         414,193
                        Government of the Republic of Botswana                       19,783
                                                                            $       704,223

Note 6. Property, Plant and Equipment, Net

               Equipment is capitalized at cost if the initial unit acquisition cost is $5,000 or more and service life
               is two years or more. Equipment with an acquisition cost of less than $5,000 or less than two years
               of life is expensed when purchased.

               ADF’s property, plant and equipment as of September 30, 2003 and 2002

                                                                                FY 2003                 FY 2002

               Equipment, at cost                                           $     1,050,162         $       801,007
               Accumulated Depreciation                                            (679,324)               (582,573)
               Equipment, net                                               $       370,838         $       218,434


Note 7. Unexpended Appropriations
                                                                                FY 2003                 FY 2002

               Unexpended Appropriations                                    $    23,805,948         $    18,963,953

               Unobligated
                  Available                                                       2,652,031               2,806,885



                                                       26
                   Unavailable                                                513,830              806,185

                   Total unobligated                                        3,165,861             3,613,070

                Undelivered Orders                                         20,640,087           15,350,883

               Total                                                  $    23,805,948       $   18,963,953

Note 8. Donations & Other Revenues

               Other Revenue recognized in FY 2003 represents expendable donated/gifted funds that are
               generated by the Foundation through its strategic partnerships with national and local African
               governments. The funds reported in FY 2003 include $833,439 of Other Revenues reported as
               non-expendable in FY 2002 with no budgetary impact to the Foundation. In FY 2003, these funds
               are now deemed expendable budgetary resources to the Foundation.

                                                                          FY 2003               FY 2002


                       Government of the Republic of Botswana         $       804,840       $      363,695
                       Government of the Republic of Guinea                         -              270,248
                       Government of Jigawa State, Nigeria            $       471,744              469,745

               Total                                                  $     1,276,584       $     1,103,688


Note 9. Accounts Payable

               Accounts payable Intragovernmental represents collections from Other Revenues awaiting
               disposition by the Foundation.

                                                                           FY 2003              FY 2002

                       Government of the Republic of Botswana                       -       $      363,695
                       Government of the Republic of Guinea                   118,296              270,247
                       Government of Jigawa State, Nigeria                          -              469,744

               Total                                                  $       118,296       $     1,103,688




                                                    27
                  Accounts payable represent amounts owed to non-federal entities, primarily commercial vendors
                  for goods and services received by ADF, and accrued employee payroll and annual leave.

                                                                                  FY 2003                FY 2002

                           Commercial vendors                                $       107,147        $        90,114
                           Accrued employee payroll and leave                        267,856                371,570

             Total                                                           $       375,003        $       461,684


Note 10. Leases

                  The space in which the Foundation Headquarters operates is leased by the Foundation through a
                  multi-year lease until April 30, 2008. The total amount of funding commitment is detailed in
                  Table 1.

                  ADF also enters into space leases in the countries with established Resident Representative
                  offices. Although these leases have three to five year renewal options, the options are exercised at
                  the discretion of ADF and do not represent future funding commitments to the Foundation.


                                                 TABLE 1 – ADF Headquaters’
                                             Space Lease – Total Future Payment Due

                               Fiscal Year                       Dates                              Amount
                               Year 1         October 1, 2003 – September 30, 2004                   $367,838
                               Year 2         October 1, 2004 – September 30, 2005                   $376,626
                               Year 3         October 1, 2005 – September 30, 2006                   $384,159
                               Year 4         October 1, 2006 – September 30, 2007                   $391,842
                               Year 5         October 1, 2007 – April 30, 2008                        $232,874
                                TOTAL                                                               $1,753,339




                                                         28
                                               October 30, 2003



To the Board of Directors and the President,
African Development Foundation

        Under generally accepted auditing standards, auditors are encouraged to report on
“significant deficiencies in the design or the operation of the internal control structure that, in the
auditor’s judgment, could adversely affect the organization’s ability to record, process, summarize,
and report financial data consistent with the assertions of management in the financial statements.”
In addition, auditors are encouraged to report, in a separate management letter, less material issues.

        In performing an audit of the African Development Foundation’s (ADF) Principal Financial
Statements, as of and for the year ended September 30, 2003, we considered ADF’s internal
controls, in determining the nature, timing, and extent of the audit test applied in connection with
our audit. Additionally, in accordance with Office of Management and Budget (OMB) Bulletin No.
01-02, Audit Requirements for Federal Financial Statements, for those significant internal control
policies and procedures that were properly designed and placed in operation, we performed
sufficient tests to justify a low assessed level of control risk consistent with Statement on Auditing
Standards No. 55, promulgated by the American Institute of Certified Public Accountants. Our
consideration of the internal controls did not entail a detailed study and evaluation of any of its
elements and was not made for the purpose of making detailed recommendations or evaluating the
adequacy of the internal controls to prevent or detect all errors and irregularities.

         ADF’s management is responsible for establishing and maintaining internal controls. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures.

         The objectives of internal controls are to provide management with reasonable, but not
absolute, assurance that assets are safeguarded against loss from unauthorized use or disposition, and
that transactions are executed in accordance with management’s authorization and recorded properly
to permit the preparation of financial statements in accordance with the comprehensive basis of
accounting described in OMB Bulletin No. 01-09, Form and Content of Agency Financial
Statements.



        Because of inherent limitations in any internal controls, errors or irregularities may occur and
not be detected. Also, projection of any evaluation of internal controls to future periods is subject to


                                                  29
the risk that it may become inadequate because of changes in conditions or deterioration in its
operating effectiveness.

       Although the purpose of our consideration of the internal controls was not to provide
assurances thereon, matters came to our attention that we want to report to you. These matters are
discussed in the attachment. These matters do not affect our report dated October 30, 2003, on the
ADF’s Principal Financial Statements referred to above.

       This report is intended solely for the use of the ADF’s management. This restriction is not
intended to limit the distribution of this report, which is a matter of public record.


Very truly yours,


/s/

Leonard G Birnbaum and Company, LLP

Attachment: As Stated




                                               30
                                                                                    Attachment I
                                                                                    Page 1 of 1

                         AFRICAN DEVELOPMENT FOUNDATION
                           Audit of Principal Financial Statements
                                     September 30, 2003

                                  Observations and Conclusions

1. Management Accountability and Control:

       OMB Circular A-127, Financial Management Systems, requires agencies to establish and
   maintain an accounting system that provides for (1) complete disclosure of the financial results of
   the activities of the agency, (2) adequate financial information for agency management and for
   formulation and execution of the budget, and (3) effective control over revenue, expenditures, funds,
   property and other assets. Because of the inadequacies of GSA’s processing of ADF’s accounting
   transactions, ADF’s internal accounting and administrative controls in place during the year ended
   September 30, 2003 were not capable of providing adequate, timely, and accurate information to
   assist ADF management in discharging fiscal responsibilities. As a result, ADF had failed to comply
   with OMB Circular A-127.

     We recommend that ADF take such action as is necessary to comply with these provisions of the
   OMB Circular A-127.

2. Monthly Reconciliation for Fund Balance held outside Treasury:

       During the audit, we noted that ADF was tracking bank account transactions on spreadsheets, but
   the account balances were not being adjusted in the general ledger monthly. Rather, the balances
   were adjusted at the end of the year, before preparing financial statements. Consequently, any
   financial statements generated during the fiscal year directly from the general ledger could be
   inaccurate.

      We recommend that ADF adjust the balance of Fund Balance held outside Treasury in the
   general ledger on monthly basis.




                                                 31
Management       We consider the management comments to be responsive to the
Comments and     recommendations made in this report. We have included these
                 comments in their entirety in Appendix I.
Our Evaluation
                 Based on the comments provided, we consider final management
                 decisions to have been reached on both of the recommendations included
                 in this report. Upon completion of final actions taken to implement the
                 recommendations identified in the report, the African Development
                 Foundation should consult with the Office of Inspector General to request
                 closure.




                                    32
                                                                                                 Appendix I



 Management
 Comments

November 10, 2003
Mr. Bruce N. Crandlemire
Assistant Inspector General for Audit
Office of the Inspector General, U.S.A.I.D.
1300 Pennsylvania Avenue
Washington, D.C. 20523-8100

Re: Audit Report of the 2003 Financial Statement

Dear Mr. Crandlemire:

We have received the audit report supplied by Leonard G. Birnbaum and Company, including the opinion on
the African Development Foundation’s (ADF) fiscal years 2002 and 2003 comparative financial statements,
internal controls status, and compliance with applicable laws and regulations. We are pleased to note that all
five comparative financial statements (Balance Sheet, Statement of Net Cost, Statement of Changes in Net
Position, Statement of Budgetary Resources, and Statement of Financing) have continued to receive
unqualified opinions. Thank you and your team as well as Birnbaum and Company for working closely with us
during the audit process.

During the course of the audit, you identified and reported an instance of weakness in the internal controls
over financial reporting and three related instances of non-compliance with selected provisions of applicable
laws and regulations. In general, we concur with your findings and recommendations. As you have identified,
the material weakness in internal controls relates to the inadequacy of the financial management systems
used by the General Services Administration (GSA) to process ADF transactions. In the beginning of FY
2003, ADF identified these weaknesses in GSA’s newly converted system and immediately began to
investigate alternative systems and providers that would address all reported weaknesses. Based on our
investigative findings, ADF entered into an interagency agreement with US Department of Interior, National
Business Center, to provide full support utilizing their federalized Financial Management System. The
implementation of NBC’s system during FY 2004 will ensure the integrity of ADF’s financial data and provide
timely reports to assist management in assessing and making key decisions regarding the its financial
operations. By March 31, 2004, all weaknesses identified in the FY 2003 audit report will be corrected. The
effectiveness and success of ADF’s quality improvement program is evidenced by the continued unqualified
opinions received on ADF’s financial statements and the timely resolution all reported weaknesses.

We at the African Development Foundation recognize the importance of accountability and public disclosure
and our goal is to achieve excellence in our financial management systems. We are committed to resolving
the issues identified in your report and have dedicated the staff and resources to ensure our systems are in full
compliance. We look forward to working with you and your staff on the 2004 audit. Any questions may be
addressed to Vicki Gentry, Chief Financial Officer at ADF or to me.

Sincerely,

/s/
Nathaniel Fields
President


1400 Eye Street, N.W. y Tenth Floor y Washington, D.C. 20005 y (202) 673-3916 y fax: (202) 673-3810 y email: info@adf.gov




                                                          33
